Inspector General                           2009
Section Report                             Annual FISMA
                                           Annual FISMA
                                              Report




        International Trade Commission




                   For Official Use Only
OFFICE OF INSPECTOR GENERAL




          UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436


Due to the sensitive nature of the information contained in this report, we have limited its
distribution.



Philip M. Heneghan

Inspector General
